NO.
October Term 2020
IN THE
SUPREME COURT OF THE UNITED STATES
IBRAHIM MCCANTS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
Louise Arkel, Esq., a member of the Bar of the Third Circuit Court of
Appeals and appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A et seq.,
certifies that, pursuant to the Supreme Court of the United States Rule 29.5, she
served the original and ten (10) copies of the within Petition for Writ of Certiorari to
the United States Court of Appeals for The Third Circuit and the original and ten
(10) copies of the within Motion For Leave to Proceed in Forma Pauperis by United
States mail, on the Clerk of the Supreme Court, Supreme Court Building, 1 First
Street, N.E., Washington, D.C. 20543 on the 7th day of August, 2020. At the same
date and time, copies of same were forwarded by first class mail to:
Noel Francisco
Solicitor General of the United States
United States Department of Justice, Room 5616
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Richard J. Ramsay, AUSA
United States Attorney's Office
970 Broad Street
Newark, NJ 07102
Patricia S. Dodszuweit, Clerk
United States Court of Appeals for the Third Circuit
21400 United States Courthouse
601 Market Street
Philadelphia, Pennsylvania 19106-1790
Ibrahim McCants,
Register No. 67740-050
FCI Allenwood Medium
Federal Correctional Institution
P.O. Box 2000
White Deer, PA 17887
/s Louise Arkel_____________________
Louise Arkel
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
for the District of New Jersey
1002 Broad Street
Newark, NJ 07102
(973) 622-7535

Dated: August 7, 2020

